Tr

sumume  CQCKLE

. E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B riefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-546
DOUGLAS BROWNBACK, ET AL.,
Petitioners,
Vv.
JAMES KING,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR THE
RESPONDENT in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point

for the footnotes, and this brief contains 12139 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 24th day of August, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

é GENERAL NOTARY. State of Nebraska Kense. 4) / &v Chk
RENEE J. GOSS . .
My Comm. Exp. September 5, 2023 Q
Notary Public

Affiant 39781

 
